                                                              IG-01-012




AUDIT
                           UNITED SPACE ALLIANCE’S USE OF PROFESSIONAL
REPORT                              AND CONSULTANT SERVICES

                                          March 16, 2001




                             OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html .

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

         Assistant Inspector General for Auditing
         Code W
         NASA Headquarters
         Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CAP                 Company Acquisition Procedures
DCAA                Defense Contract Audit Agency
DCMA                Defense Contract Management Agency
DoD                 Department of Defense
FAR                 Federal Acquisition Regulation
GAO                 General Accounting Office
USA                 United Space Alliance
W                                                                                              March 16, 2001


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: United Space Alliance’s Use of Professional and
                   Consultant Services
                   Report Number IG-01-012


The NASA Office of Inspector General has completed an audit of United Space Alliance's1
(USA's) use of professional and consultant services. Professional and consultant services are
services performed by persons who are members of a particular profession or possess a special
skill and who are not officers or employees of the contractor.2 We found professional and
consultant service costs charged to NASA that did not meet Federal Acquisition Regulation
(FAR) requirements for allowability and inadequate and untimely justifications for
noncompetitive procurements of the professional and consultant services. Specially, we found
that USA officials did not maintain evidence on the nature and scope of the furnished services;
maintain adequate support for decisions to noncompetitively award the service subcontracts;
and prepare written justifications for the noncompetitive awards prior to initiation of the work.
As a result, the $468,673 USA charged to NASA for the services may include unallowable
costs3 and the Agency has reduced assurance that USA obtained the best available source or
price for professional and consultant services.

Background




1
  USA is a joint venture between The Boeing Company and Lockheed Martin Corporation.
2
  Federal Acquisition Regulation Part 31.205-33 provides this definition. The NASA budget includes a separately
stated amount for services titled, “professional, administrative, and management advisory services.” The NASA budget
amount applies to services obtained by NASA under a contract and does not apply to professional and consultant
services obtained by a NASA contractor under a subcontract. Therefore, the NASA budget amount does not apply to
the audit objectives and scope.
3
  Three subcontracts that were active in 1998 were also active in 1997. The potentially unallowable costs include
$197,394 incurred in 1997 and $271,279 incurred in 1998 and 1999.
NASA’s Space Flight Operations Contract4 with USA requires the contractor to comply with
FAR requirements pertaining to professional and consultant service costs. The FAR
                                                                                                                         2

states that these service costs are allowable costs only when supported by documented
evidence of the nature and scope of the furnished service. Support would include details of the
agreement between USA and the consultant, invoices from consultants that provide sufficient
detail on the nature of the actual services performed, and the consultant’s work products. The
Defense Contract Audit Agency (DCAA) is responsible for reviewing USA’s incurred costs for
allowability.

The contract also requires USA to competitively award subcontracts to the maximum extent
practical. This includes documenting efforts to identify potential sources for the services and the
reasons sources not selected were incapable of performing the subcontract requirements. The
Defense Contract Management Agency (DCMA) is responsible for the Government’s oversight
of USA’s purchasing system, which includes the costs for professional and consultant services.

Contracting for professional and consultant services is susceptible to problems such as
noncompliance with laws and regulations related to competition and conflict of interest,
circumvention of related internal controls, and potential improper use of funds. Although the
costs for these services are generally low-dollar costs, they are considered sensitive costs.5
Weaknesses in the procurement and contract administration processes exist in this sensitive cost
area that, taken in combination, pose a risk of abuse to NASA.

Recommendations

We recommended that NASA direct USA to maintain complete documentation on furnished
consultant services and on decisions to award these service contracts noncompetitively.
Adequate documentation provides NASA assurance that professional and consultant service
subcontracts are allowable contract costs and that USA awarded the subcontracts to the best
available source at a reasonable price, particularly in the absence of competition or an
appearance of a conflict of interest. We also recommended NASA request that DCAA include
reviews of professional and consultant services in future incurred cost audits and that DCMA
incorporate such service subcontracts into reviews of USA’s purchasing system. Because the



4
  USA provides services for the Space Flight Operations Contract under contract NAS9-20000.
5
  FAR 9.5, "Organizational and Consultant Conflicts of Interest," states that organizational and consultant conflicts of
interest result when other activities or relationships limit a person's ability to give impartial advice to the Government
or objectively perform contract work. The U.S. General Accounting Office defined sensitive costs in publication
GAO/AFMD-8.1.2, “Guide for Evaluating and Testing Controls Over Sensitive Payments,” May 1993. As recent as
October 2000, the Department of Defense Office of Inspector General reported that the Army and Air Force Exchange
Service did not require unpaid consultants to file financial disclosure reports, which could have assisted in identifying
potential conflicts of interest.
professional and consultant service subcontracts are vulnerable to improper use, additional
review by the DCAA and DCMA will give NASA improved oversight of such services.


                                                                                                 3

Management's Response

NASA concurred with the findings and recommendations. The NASA administrative
contracting officer, in conjunction with the DCMA, requested USA to maintain documentation
identifying the nature and scope of furnished professional and consultant services. NASA also
instructed USA to ensure that noncompetitive justifications (1) address efforts to identify other
sources and the reasons other sources could not perform the subcontract requirements and (2)
be submitted and approved prior to initiation of work. The DCAA will include professional and
consultant service costs as part of the incurred cost audit for calendar year 1999.6 Further, the
DCMA established a process to ensure that it includes these service subcontracts in reviews of
USA’s purchasing system.

Details on the status of the recommendations are in the recommendations section of the report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of United Space Alliance’s Use of Professional and Consultant
 Services




6
    The DCAA is currently performing the 1999 incurred cost audit.
UNITED SPACE ALLIANCE’S USE OF PROFESSIONAL AND
             CONSULTANT SERVICES
W                                                                            March 16, 2001


TO:             M/Associate Administrator for Space Flight
                JSC/AA/Director, Lyndon B. Johnson Space Center

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on the Audit of United Space Alliance’s Use of Professional and
                Consultant Services
                Assignment Number A0002100
                Report Number IG-01-012


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The corrective actions completed for recommendations 1 through 4 were
responsive. Management’s actions are sufficient to close those recommendations for reporting
purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360; or Ms. Nora Thompson, Audit Program
Manager, at (757) 864-3268; or Mr. Doug Orton, Auditor-in-Charge, at (281) 244-1159.
We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix E.




[original signed by]
Russell A. Rau

Enclosure

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
                                       3

bcc:
AIGA Chrons
H/Audit Liaison Representative
JSC/BD5/Audit Liaison Representative
W/JPL/180-300/L. Dear
   LaRC/205/N. Thompson
   JSC/W-JS/D. Orton
   W/N. Cipolla
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations , 3

     Finding A. Contractor Charges for Professional and Consultant
                 Service Costs, 3

     Finding B. Controls over Noncompetitive Procurements of
                Professional and Consultant Services, 8

Appendix A - Objectives, Scope, and Methodology, 12

Appendix B - Consultant Subcontracts Reviewed, 13

Appendix C - Summary of Prior Reviews and Findings, 14

Appendix D - Management’s Response, 16

Appendix E - Report Distribution, 28
                                NASA Office of Inspector General

IG-01-012                                                                                 March 16, 2001
 A0002100

                                    United Space Alliance’s Use of
                                     Professional and Consultant
                                               Services

                                             Executive Summary

Background. Under contract NAS9-20000,7 USA provides Space Shuttle mission planning;
vehicle processing for flight, flight operations, launch and landing operations; and orbiter and
Space Shuttle vehicle engineering and modifications. NASA awarded the contract to USA on
September 26, 1996, for $6.95 billion, with a 6-year period of performance from October
1996 through September 2002. As of September 20, 2000, the contract value was $8.7
billion.8 Two contract options, if exercised, would extend the contract another 4 years through
September 2006. Because USA performed work almost exclusively for NASA, substantially
all the cost for USA is charged to NASA. For 1998, USA’s claimed costs on NAS9-20000
totaled $1.3 billion, and about $266,0009 of that amount was for professional and consultant
services. USA acquired professional and consultant services to obtain advice, studies, training,
or a liaison with Government agencies. The primary locations of performance on the contract
are Johnson Space Center (Johnson) and the Kennedy Space Center (Kennedy).

The DCMA is responsible for the Government’s oversight of USA’s purchasing system, which
includes the award and management of professional and consultant service subcontracts. The
DCAA is responsible for reviewing incurred costs, including costs for professional and
consultant services.

Objectives. The overall objective was to determine whether NASA had adequate controls
over USA’s use of professional and consultant services. See Appendix A for the specific audit
objectives and methodology. For our review, we selected subcontracts for professional and
consultant services that were active in 1998 and 1999 and had a contract value of $15,000 or
more. Nine subcontracts with a total value of $1.9 million met our criteria for review (see
Appendix B).


7
 Under Contract NAS9-20000, NASA reimburses USA for costs it incurred in performing the contract. In addition,
NASA pays award, incentive and performance, and program plus fees to USA. The fees represent USA’s profit on the
contract.

8
    The $8.7 billion applies to contract actions from award through contract modification number 528.
9
    The $266,000 is .02 percent of the $1.3 billion total incurred costs for 1998.
Results of Audit. Controls over USA's use of professional and consultant service
subcontracts need improvement. Weaknesses in the procurement and contract administration
processes exist in this sensitive cost area that, taken in combination, pose a risk of abuse to
NASA. Four of nine professional and consultant service subcontracts we reviewed did not
meet FAR requirements for allowability. The four subcontracts had one or more of the
following deficiencies:

         •    Inadequately described statements of work (three subcontracts)
         •    Incomplete invoices from consultants (four subcontracts)
         •    Undocumented work products (three subcontracts)

As a result, $468,673 charged to NASA for professional and consultant services in 1998 and
1999 may include unallowable costs.10 The NASA administrative contracting officer will make
the final determination on the allowability of the costs (Finding A).

Further, for seven of nine professional and consultant service subcontracts we reviewed, USA
buyers did not require adequate justifications for noncompetitive procurements. Written
justifications for the seven subcontracts had one or more of the following deficiencies:

         •    Inadequate explanatory statement (six subcontracts)
         •    Untimely justification for noncompetitive procurement (three subcontracts)

As a result, NASA has reduced assurance that USA obtained the best available source or price
for consultant services paid for under the seven subcontracts (Finding B).

Recommendations. We recommended that management require the Agency’s administrative
contracting officer for contract NAS9-20000 to (1) require USA to maintain documentation to
ensure that professional and consultant service subcontracts meet FAR requirements for
allowability, (2) request the DCAA to include professional and consultant service subcontracts
in samples selected for future incurred cost audits at USA, (3) require USA to prepare
adequate and timely justifications for noncompetitive procurements, and (4) request the DCMA
administrative contracting officer to establish a process that incorporates the contractor's
monthly report of professional and consultant service subcontracts into the semiannual
surveillance reviews of contract NAS9-20000.

Management’s Response. Management concurred with all the recommendations. NASA,
in conjunction with the DCMA, directed USA to maintain required support for professional and
consultant costs and asked the DCAA to include reviews of professional and consultant service
costs in its next audit of USA’s incurred costs. The Agency also directed USA to maintain
additional support for decisions to award professional and consultant service subcontracts on a

10
  Three subcontracts that were active in 1998 were also active in 1997. The potentially unallowable costs include
$197,394 incurred in 1997 as well as $271,279 incurred in 1998 and 1999.


                                                          ii
noncompetitive basis. In addition, the DCMA established a process that includes reviews of
professional and consultant service subcontracts in semiannual surveillance reviews. The
complete text of the response is in Appendix D.

Evaluation of Management’s Response. We consider management’s comments responsive
and commend the agency for taking immediate actions to strengthen oversight of USA’s
professional and consultant service subcontracts.




                                             iii
Introduction

USA's Responsibilities in Subcontracting. NAS9-20000 gives USA authority to
subcontract for professional and consultant services and requires USA to award and administer
subcontracts according to requirements in FAR, Part 44, "Subcontracting." USA must maintain
a purchasing system that promotes efficient and effective use of Government funds. The
purchasing system must include processes that select the best source for a subcontract and
oversight controls that ensure the proper award and administration of subcontracts. Oversight
controls are critical to protecting NASA's interest because most USA subcontracts for
professional and consultant services involved sources not subject to Government oversight.
FAR Part 44 requires USA to comply with Government policies in subcontract awards,
including the Government policy of full and open competition in contracting.

Oversight of Professional and Consultant Services. Normally, NASA delegates oversight
during contract performance to the DCMA. Due to the large size and complex scope of the
USA contract, the NASA administrative contracting officer retains some oversight responsibility
and works with the DCMA administrative contracting officer, when needed, to effectively
perform oversight tasks.

The DCMA conducts a purchasing system review to evaluate USA’s purchasing of material and
services, including subcontracts. The DCMA administrative contracting officer uses the
purchasing system review as a basis for approving the USA purchasing system. In September
1998, DCMA conducted a purchasing system review at USA and recommended approval of
USA’s purchasing system. The NASA administrative contracting officer approved the USA
purchasing system on February 19, 1999.

To maintain Government oversight throughout contract performance, the DCMA administrative
contracting officer conducts consent to subcontract reviews and semiannual surveillance
reviews. Consent to subcontract reviews require USA officials to obtain the DCMA
administrative contracting officer's consent before awarding time and materials subcontracts with
costs of $100,000 or more that are charged directly to the contract. The semiannual reviews in
1999 did not identify deficiencies in the USA purchasing system. Therefore, on March 27,
2000, the DCMA administrative contracting officer issued a letter to USA continuing the
February 19, 1999, approval of USA’s purchasing system.

The DCAA conducts annual audits of incurred costs for contract NAS9-20000 and determines
whether costs meet contract and FAR allowability requirements. DCAA reports those costs
that do not meet allowability requirements to the DCMA administrative contracting officer. The
DCMA administrative contracting officer determines the allowability of the reported costs and
recommends corrective action to the NASA administrative contracting officer. The NASA
administrative contracting officer retains signature authority for the final determination and
recoups any unallowable costs.
DCAA completed the 1998 audit of incurred costs and reported the results to the DCMA
administrative contracting officer on September 29, 2000.11 DCAA auditors are currently
performing the 1999 audit of incurred costs.

Prior Reviews. During prior reviews of consultant services and subcontracts, the Department
of Defense (DoD) Office of Inspector General and the NASA Office of Inspector General have
found deficiencies. USA also conducted an internal review of professional and consultant
services. The review concluded that USA needed to better define professional and consulting
services but did not identify deficiencies in the award of consultant subcontracts. See Appendix
C for a summary of the reports and findings.




11
  DCAA reported the results of the 1998 audit of incurred costs in ”Supplemental Advisory Report on Audit of Final
Indirect Rates and Incurred Costs for Contractor Fiscal Year 1998,” Audit Report
No. 3521-998B10100533-S1, dated September 29, 2000.
                                                        2
Findings and Recommendations

Finding A. Contractor Charges for Professional and Consultant
           Service     Costs

For four of nine subcontracts we reviewed, professional and consultant service costs did not
meet FAR requirements for allowability. Costs do not meet requirements because USA’s
acquisition procedures did not require contractor personnel to maintain documentation of the
nature and scope of professional and consultant services. As a result, the $468,673 charged to
NASA for professional and consultant service subcontracts may include unallowable costs.


FAR, General Accounting Office, and Agency Requirements

FAR, Subpart 31.205-33, “Professional and Consultant Service Costs,” states that
professional and consultant services are allowable costs only when supported by evidence of
the nature and scope of the service the consultant furnished under the subcontract. FAR
requires the contractor to maintain:

       •    Details of the agreement between the consultant and contractor (for example, work
            requirements and rate of compensation) and details of actual services the consultant
            performed.

       •    Invoices from the consultant with sufficient details regarding the time the consultant spent
            on the subcontract and the nature of the actual services the consultant performed.

       •    Consultants' work products and documents related to the work the consultant
            performed. Examples include trip reports, minutes of meetings, and collateral
            memoranda and reports.12

The General Accounting Office (GAO) Guide for Evaluating and Testing Controls Over
Sensitive Payments provides a framework for management to evaluate the effectiveness of
controls over sensitive payment areas, including professional and consultant services. The guide
states that controls should prevent or detect noncompliance with related laws and regulations
and the misuse of public funds. Specifically, management must ensure contract and consulting
services are authorized, payment amounts are correct, and receipts support the payments for
goods and services.

Although the GAO guide does not require management to follow its framework, the guide
assists management in carrying out its control responsibilities under NASA Policy Directive
(NPD) 1200.1A, “Internal Management Controls and Audit Liaison and Followup,” June 1,
2000. NPD 1200.1A requires management to establish management controls that protect

12
     Trip reports should indicate persons the consultant visited and subjects the consultant discussed during the visits.
                                                               3
resources, including contract funds, from improper use and to ensure actions are in compliance
with laws and regulations.


Professional and Consultant Service Subcontracts

USA officials did not adequately document the nature and scope of the services furnished on
four professional and consultant service subcontracts. The four subcontracts did not meet FAR
requirements in one or more of the following areas:

    •   Inadequate statements of work. Three subcontracts did not include details of work
        requirements. The three subcontracts included only broad, generally worded statements
        of work. Additionally, USA officials’ directions to the consultants on specific work to
        be performed were oral and undocumented.

    •   Incomplete consultant invoices. Consultants submitted invoices for the four
        subcontracts that reported the time spent on the subcontract, but did not adequately
        describe the nature of the services the consultants performed during the reported time.
        USA officials paid the invoices without requiring a description of the services.

    •   Undocumented work products. For three subcontracts, USA officials could not
        provide consultant work products or other records evidencing the actual work
        performed by the consultants. Consultants provided only oral reports on the work
        performed to the USA officials who requested the consultant subcontracts. However,
        USA officials did not maintain documentation of the oral reports.

The following table shows the incurred cost for fiscal years 1997 through 1999 and the
identified deficiencies on the four subcontracts. For the 3-year period, incurred costs billed to
NASA for the four subcontracts totaled $468,673. Subcontract 197A001500 included costs
that could be considered lobbying costs. We discussed the subcontract with the NASA
administrative contracting officer during the audit. The NASA administrative contracting officer
is further evaluating the activities associated with these costs to determine their allowability.




                                                4
        Professional and Consultant Subcontracts Not Meeting FAR Requirements

                   Incurred Cost      Incurred Cost       Incurred Cost
  Subcontract        for 1997           for 1998            for 1999                        Deficiency

197A001500*              $ 22,572           $137,419             $20,940         •    Incomplete statement of work
                                                                                 •    Incomplete invoices
                                                                                 •    Undocumented work products
1960421353                160,080              26,670                     0      •    Incomplete invoices
                                                                                 •    Undocumented work products
P000006299                       0                    0            41,405        •    Incomplete statement of work
                                                                                 •    Incomplete invoices
197A000435                 14,742              39,911               4,934        •    Incomplete statement of work
                                                                                 •    Incomplete invoices
                                                                                 •    Undocumented work products
Total                    $197,394           $204,000             $67,279

* The subcontract included costs that could be considered lobbying costs. NASA is further evaluating the costs.



USA Acquisition Procedures

USA Company Acquisition Procedures (CAP) 2.421, “Consultant Service Agreements,” and
CAP 12.200, “Consultant Services,” do not require contractor personnel to maintain the
documentation necessary for determining whether the work performed by consultants was
proper and met FAR requirements for allowability. Consequently, USA technical
representatives, who requested the consultant service subcontract, did not prepare, obtain, or
maintain the necessary documentation.

CAP 2.421 and CAP 12.200 specify requirements that USA buyers and technical
representatives must follow when awarding professional and consultant service subcontracts.
CAP 2.421 permits the buyer's technical representative, normally the USA employee requesting
the consultant service subcontract, to direct the consultant's work. CAP 2.241 does not
specifically require the buyers’ technical representatives to document oral directions regarding
the work scope, reports of the actual work the consultant performed, or the consultant's work
products. Further, CAP 2.241 and CAP 12.200 do not require consultants to describe the
actual services performed for the time billed on each invoice.




                                                          5
DCMA and DCAA Oversight

DCMA purchasing system reviews and DCAA audits of incurred costs use a risk-based
approach to select individual items for review. The risk-based approach focuses a review on
items for which the risk and expected benefit are greatest and balances the audit staff and time
required to review an item in relation to the risk of it being unallowable and its dollar value. For
years prior to 1998, DCMA purchasing system reviews and DCAA incurred cost audits did not
disclose unallowable consultant costs at USA. The dollar value of individual professional and
consultant service subcontracts are lower than other items of incurred costs for those years.
Although professional and consultant services subcontracts are sensitive to improper use or
conflict of interest, DCMA and DCAA are less likely to select the subcontracts for review
because of their lower dollar value.


Effect on Contract Costs

The USA charges to NASA of $468,673 for the four professional and consultant service
subcontracts may include unallowable costs. We asked DCAA to include the $468,673 as
questioned costs in the 1998 and 1999 audits of USA’s incurred costs. As part of the oversight
process, the DCMA administrative contracting officer will review and determine the allowability
of these costs and recommend corrective action to the NASA administrative contracting officer.
The NASA administrative contracting officer retains signature authority to make the final
determination and recoup any unallowable costs.

The NASA administrative contracting officer is aware of the potential unallowable costs, so we
are not making a related recommendation. However, the NASA administrative contracting
officer should direct USA officials to ensure that the nature and scope of professional and
consultant services are adequately documented. Because professional and consultant service
subcontracts are vulnerable to improper use, the NASA administrative contracting officer
should increase Government oversight of such services through additional review by the DCAA.


Recommendations, Management’s Response, and Evaluation of
Response

The Director, Johnson Space Center, should require the NASA administrative
contracting officer for contract NAS9-20000 to:

     1. Direct USA officials to ensure company personnel maintain complete
        documentation of the statement of work, actual services the consultant
        performed, and nature of the actual services performed for the time billed on
        the consultant's invoice.



                                                 6
     2. Request the DCAA to include professional and consultant service costs in
          samples selected for future incurred cost audits.
Management’s Response. Concur. The NASA administrative contracting officer, in
conjunction with the DCMA, notified USA that the DCMA’s surveillance reviews will include
reviews of consultant agreements. The DCMA will review documentation maintained in support
of the statement of work, actual services the consultant performed, and the nature of the actual
services performed for the time billed on the consultant’s invoice. Under authority delegated by
Johnson, the DCMA requested the DCAA to include consultant costs in its audit of USA’s
claimed incurred costs for calendar year 1999. The complete text of management’s response is
in Appendix D.

Evaluation of Management’s Response. Management’s completed actions are responsive
to the recommendations. Management’s actions are sufficient to disposition recommendations 1
and 2 for reporting purposes.




                                               7
Finding B. Controls over Noncompetitive Procurements of
Professional and Consultant Services

For seven of nine professional and consultant service subcontracts we reviewed, USA officials
did not prepare acceptable justifications for noncompetitive procurements. USA procedures do
not sufficiently implement FAR requirements for USA personnel to prepare acceptable
acquisition justifications for noncompetitive procurements. As a result, NASA has reduced
assurance that the contractor obtained the best source and price for the noncompetitive
procurements.


Federal Contracting Requirements

FAR, Part 6, "Competition Requirements," directs contacting officers to take specific actions
that ensure compliance with Government policy on full and open competition in Government
contract awards. The contracting officer must solicit offers from as many potential sources as is
practical. To identify potential sources, the contracting officer conducts a market analysis,
documents the analysis, and retains the documentation in the contract file. A contracting officer
can award a noncompetitive procurement when only a single qualified source is available to
perform the contract requirements. However, the contracting officer must prepare a written
justification that explains why a competitive procurement is not appropriate. The justification
must describe the market analysis and results of the analysis, list other sources that are available,
explain the selected source's unique qualifications, and explain why the available sources that
were not selected are unqualified.

FAR, Part 44, "Subcontracting," requires USA to comply with Government policies in
subcontract awards, including the Government policy of full and open competition. To ensure
USA competitively awards subcontracts to the maximum extent practical, contract NAS9-
20000 incorporated FAR Clause 52.244-5, "Competition in Subcontracting." USA
implemented Procurement Functional Policy and Procedure B-03-11, “Requisitioning,” dated
April 2, 1999, to establish USA procurement procedures for maximizing competition in
subcontract awards. The procedure requires contractor personnel requesting a noncompetitive
procurement valued at more than $2,500 to prepare a written justification describing the need to
acquire goods or services from a single or sole source.


Justifications for Noncompetitive Procurements

Written justifications for the seven noncompetitive procurements of professional and consultant
services included one or more of the following deficiencies:

    •   Inadequate explanatory statement. For six procurements, justifications stated that
        the consultant was uniquely qualified and that other capable sources were not available.
        The justifications did not state why the other sources were incapable of performing the

                                                  8
         subcontract requirements or describe attempts to locate other available sources.
         Additionally, justifications and subcontract files did not contain documentation
         describing attempts to identify other available sources. For two of the six
         procurements, USA personnel requesting the noncompetitive procurement stated they
         did not attempt to identify other sources. For four of the six procurements, requesters
         stated they attempted to identify other sources, but did not document the attempts on
         the justification or maintain other documentation of their attempts.

     •   Untimely justification. For three procurements, the selected sources began work
         before USA personnel requesting the noncompetitive procurement submitted written
         justifications to USA buyers. One consultant began work 5 months before the
         requester submitted a written justification to the USA buyer; two consultants began
         work 1 month before the requesters submitted written justifications to USA buyers.
         One of the three procurements involves a potential conflict of interest between the
         requesting official and the consultant. We discussed the subcontract with the NASA
         administrative contracting officer during the audit, and NASA is further evaluating the
         requesting official’s selection of the consultant.


USA Acquisition Procedures

USA procedure B-03-11 requires the USA requester of a noncompetitive procurement to
document supporting rationale on the justification. However, the procedure does not require
requesters to (1) document efforts to identify other sources on the written justification, (2) state
why other sources are incapable of performing the subcontract requirements, (3) maintain
documentation supporting the justifications for noncompetitive procurements, or (4) submit
written justifications for buyer approval before directing the subcontractors to initiate the work.
USA should ensure that requesting personnel submit acceptable and timely justifications for
professional and consultant service subcontracts.


DCMA Oversight

DCMA officials had limited oversight of professional and consultant service subcontracts
because these subcontracts rarely met the criteria for consent established in NAS9-20000.
None of the nine professional and consultant service subcontracts we reviewed were subject to
the DCMA administrative contracting officer’s consent.13 Eight of the nine professional and
consultant service subcontracts were time and materials subcontracts with total costs of less
than $100,000. However, the subcontracts did not require the administrative contracting
officer's consent because the professional and consultant subcontracts were not direct charges
to contract NAS9-20000.

13
 NAS9-20000 requires that USA obtain the DCMA’s administrative contracting officer’s consent on time and
materials subcontracts whose estimated costs are $100,000 or more and whose costs will be direct charges to contract
NAS9-20000.
                                                          9
During the 3-year period between purchasing system reviews, the NASA and DCMA
administrative contracting officers conduct semiannual surveillance reviews of professional and
consultant services subcontracts. The semiannual reviews alternate between reviews of sampled
procurement transactions and process validations. The first semiannual review evaluates about
70 randomly selected transactions for compliance with FAR and USA procedures. For the
second semiannual review, USA officials and the DCMA administrative contracting officer
validate the USA purchasing process. However, because of the risk-based sampling approach,
the semiannual surveillance reviews provide only limited visibility of professional and consultant
services subcontracts.

As a result of our efforts during the audit, USA officials will provide an internal monthly
consultant service subcontract report to the DCMA administrative contracting officer beginning
in November 2000. The report will list active professional and consultant service subcontracts
and include the consultant’s name, subcontract dollar value, description of subcontract services,
type of award (competitive or noncompetitive), and classification of cost (direct or indirect).
The DCMA administrative contracting officer could improve the visibility of USA’s professional
and consultant service subcontracts by incorporating information on the report into the
semiannual surveillance reviews at Johnson and Kennedy.


Effect on Competition and Oversight Reviews

Adequate justifications and supporting documentation are needed to provide NASA assurance
that USA awarded professional and consultant service subcontracts to the best available source
at a reasonable price, particularly in the absence of competition or an appearance of a conflict
of interest. Additionally, adequate documentation facilitates DCMA oversight reviews by
describing the steps the contractor used to identify the available sources and the contractor's
basis for noncompetitively selecting a single source.


Recommendations, Management’s Response, and Evaluation of
Response

The Director, Johnson Space Center, should direct the NASA administrative
contracting officer for contract NAS9-20000 to:

    3. Direct USA officials to ensure company personnel requesting noncompetitive
       awards of professional and consultant service subcontracts (1) document efforts
       to identify other sources, (2) document the reasons other sources were
       incapable of performing the subcontract requirements, (3) maintain
       documentation supporting justifications for noncompetitive procurements, and
       (4) submit justifications to procurement personnel before work is initiated.



                                               10
    4. Request the DCMA administrative contracting officer to establish a process
       that incorporates the contractor's monthly report of professional and consultant
       service subcontracts into the semiannual surveillance reviews of contract
       NAS9-20000.

Management’s Response. Concur. Under authority delegated by Johnson, the DCMA
administrative contracting officer directed USA to ensure that noncompetitive justifications
include statements addressing efforts to identify other sources and the reasons other sources are
incapable of performing the subcontract requirements. The DCMA administrative contracting
officer also requested that USA ensure the justifications are submitted to USA’s procurement
office prior to initiation of work. The DCMA will review for compliance with the directions
during future purchasing system surveillance. At DCMA’s direction, USA provides its monthly
Consultant Contracts Report to the DCMA administrative contracting officer. The DCMA
factors the information on the report into the semiannual surveillance reviews.

The complete text of management’s response is in Appendix D.


Evaluation of Management’s Response. Management’s completed actions are responsive
to the recommendations. Management’s actions are sufficient to disposition recommendations 3
and 4 for reporting purposes.




                                               11
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA had adequate controls of USA’s use of
professional and consultant services. Specifically, we determined whether the contractor’s
professional and consultant service costs included unallowable costs.


Scope and Methodology

We reviewed professional and consultant service subcontracts that were active in 1998 and
1999. During that period, USA had 13 active professional and consultant service subcontracts
totaling $1.927 million. We examined the subcontracts, statements of work, single-source
justification memoranda, cost and price analyses, consultants’ invoices and work products,
payment approvals, and miscellaneous correspondence. We also compared each subcontract
against requirements in the FAR and relevant USA policies and procedures, interviewed
contractor personnel who requested the consultant services, USA procurement officials, the
NASA administrative contracting officer, and the DCMA administrative contracting officer.


Use of Computer-Processed Data

We obtained computer-generated data on subcontract awards and tested the data by
comparing data to source documents for the sampled subcontracts. The tests showed that the
computer-processed data were sufficiently reliable to be used in meeting the audit objectives.


Management Controls Reviewed

We reviewed management controls over compliance with FAR allowability requirements and
the award of consultant subcontracts. We determined that management controls over
compliance with FAR allowabililty requirements and over the justification of noncompetitive
procurements need improvement as discussed in Findings A and B.


Audit Field Work

We performed audit field work from December 1999 through November 2000 at Johnson
Space Center and at USA’s facility in Houston, Texas. We performed the audit in accordance
with generally accepted government auditing standards.




                                               12
                  Appendix B. Consultant Subcontracts Reviewed


                                   Incurred
                    Dollar Value     Cost
    Subcontract                    (Through                           Deficiencies
                                   December
                                     1999)


P0000052061           $551,300     $338,027 •       Inadequate explanatory statement on justification
                                            •       Untimely justification for noncompetitive procurement
1960421353             300,000      186,750 •       Incomplete invoices submitted by consultant
                                            •       Undocumented work products
                                            •       Inadequate explanatory statement on justification
                                            •       Untimely justification for noncompetitive procurement
3000082347              25,000       47,043 •       None
P000009412              15,000       18,950 •       Untimely justification for noncompetitive procurement
197A000435             350,000       59,587 •       Inadequate statement of work
                                            •       Incomplete invoices submitted by consultant
                                            •       Undocumented work products
                                            •       Inadequate explanatory statement on justification
197A0015002            250,000      180,931 •       Inadequate statement of work
                                            •       Incomplete invoices submitted by consultant
                                            •       Undocumented work products
                                            •       Inadequate explanatory statement on justification
197A000838              73,000       22,603 •       Inadequate explanatory statement on justification
P000006299             270,400       41,405 •       Inadequate statement of work
                                            •       Incomplete invoices submitted by consultant
                                            •       Inadequate explanatory statement on justification
3000081973              73,500       68,086 •       None
     Totals         $1,908,200     $963,382




1
  The subcontract included costs that may involve a potential conflict of interest. NASA is
further evaluating the costs.

2
 The subcontract included costs that could be considered lobbying costs. NASA is further
evaluating the costs.




                                               13
           Appendix C. Summary of Prior Reviews and Findings

NASA Office of Inspector General (OIG) Reviews. The NASA OIG issued a
management letter report and two audit reports on subcontract management. (Copies of the
audit reports are available at www.hq.nasa.gov/office/oig/hq/issuedaudits.html.)

“Allied-Signal Subcontract Management,” Report Number IG-99-042,
September 16, 1999, and “Raytheon Subcontract Management,” Report Number IG-
00-002, December 21, 1999. Purchasing department buyers for the two contractors did not
maintain documentation to support justifications for noncompetitive procurements. The
contractors' purchasing policies did not require contractor personnel to keep supporting
documentation. Additionally, Government oversight reviews of the contractors’ procurement
systems did not include examinations of supporting documentation for noncompetitive
procurements. As a result, NASA had reduced assurance that the contractor maximized the
competition of its subcontracts. In response to our recommendations, NASA management
instructed the contractors to maintain adequate documentation in support of noncompetitive
procurements. NASA management also took actions to include reviews of supporting
documentation in future reviews of the contractors’ purchasing systems.

"Management Letter Regarding Procurement Issues Identified in the Shuttle-Mir
Rendezvous and Docking Missions and International Space Station Operational
Readiness Task Forces Report," February 18, 1998. A NASA subcontractor providing
technical support to a NASA Task Force may have lacked the impartiality needed to make
independent assessments and recommendations because the subcontractor's reviews involved
organizations that funded the subcontract. Also, the noncompetitively awarded subcontract and
subcontract extension did not have adequate justification for a noncompetitive procurement.
The contractor submitted inadequate explanatory statements for the initial award, did not
conduct a market survey or submit a written justification for the subcontract extension, did not
perform an adequate price analysis, and did not obtain the required approvals. Because the
management letter report contains sensitive and proprietary contractor information, we are not
providing additional details regarding the report's recommendations and management's response
to the recommendations.

Department of Defense (DoD) Inspector General Review. On March 10, 2000, the
DoD Inspector General (DoDIG) issued audit report No. D-2000-100, “Contracts for
Professional, Administrative, and Management Support Services.” DoDIG auditors reviewed
procurement procedures for professional, administrative, and management support service
contracts at 15 DoD contracting activities and program offices. The report identified problems
in each of 105 sampled contract actions. Problems included undefined requirements,
inadequate technical reviews, inadequate negotiation memorandums, inadequate competition,
and lack of cost control. The DoDIG also issued audit report No. D-2001-005, “Use of
Unpaid Consultants by the DoD Exchange Services,” dated October 16, 2000. The report
states that the Army and Air Force Exchange Service inappropriately engaged consultants who
had financial affiliations with

                                               14
                                                                                  Appendix C

the Exchange Service. The Exchange Service did not require unpaid consultants to file financial
disclosure reports, which could have assisted in identifying potential conflicts of interest.

USA Review. In July 1998, a USA internal audit report of professional and consulting services
concluded that USA needed to better define professional and consulting services. Beginning in
calendar year 2001, USA plans to conduct annual internal audits of professional and consultant
services.




                                              15
Appendix D. Management’s Response




               16
                                                                                    Appendix D




                                                                                                 *




* The attachment is not included in the report, but can be provided upon request.


                                                       17
Appendix D




                                                                                      *




                                                                                      *




  * The attachment is not included in the report, but can be provided upon request.




                                                        18
     Appendix D




19
Appendix D




             20
     Appendix D




21
Appendix D




             22
     Appendix D




23
Appendix D




             24
     Appendix D




25
Appendix D




             26
     Appendix D




27
                         Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space



                                               28
                                                                                 Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             29
                     NASA Assistant Inspector General for Auditing
                                   Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: United Space Alliance’s Use of Professional and Consultant Services

Report Number:                                   Report Date:


           Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                                    l         e      Disagre
                                                Agree                                   e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                                  Media

       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?


Yes: ______                                    No: ______

Name: _____________________________

Telephone: __________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne Dear, Program Director, Procurement Audits

Nora Thompson, Program Manager, Procurement Audits

Doug Orton, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Debbie Schuerger, Program Assistant
